IN THE SUPREME COURT OF THE UNITED STATES
No.
JAIDEEP S. CHAWLA,
Petitioner,
v.
COURT OF APPEALS OF MASSACHUSETTS,
Respondent.

CERTIFICATE OF SERVICE

I, Jaideep S. Chawla, acting pro se, hereby certify that on this 9th day of September,
2019,1 caused three copies of the petition for a writ of certiorari to be served by United States
Postal Service priority mail on the following counsel:
Jeffrey T. Walker
Office of the Attorney General
One Ashburton Place
Boston, MA 02108
Attorney for Respondent
I further certify that all parties required to be served have been served.
I declare under penalty of perjury that the foregoing is true and correct.

Executed on September 9, 2019
Jaideep S. Chawla
PROSE
Mailing Address:
12 Lexington Avenue
Charlestown, MA 02129

